U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Michael Jackson v. Donald Hudson, Warden
S.Ct. No. 21-347

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 31,
2021, and placed on the docket on September 3, 2021. The government’s response is due on
October 4, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 3, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0347
JACKSON, MICHAEL
DONALD HUDSON, WARDEN

KEVIN K. RUSSELL
GOLDSTEIN & RUSSELL, P.C.
7475 WISCONSIN AVE.
SUITE 850
BETHESDA, MD 20814
202-362-0636
KR@GOLDSTEINRUSSELL.COM

